HHS/OIG, Audit - "Review of Improper Temporary Assistance for Needy
Families Basic Assistance Payments in Ohio for April 1, 2006, Through March 31,
2007," (A-04-07-03520)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Improper Temporary Assistance for Needy Families Basic Assistance Payments in
Ohio for April 1, 2006, Through March 31, 2007," (A-04-07-03520)
July 15, 2008
Complete
Text of Report is available in PDF format (3.72 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period April 1, 2006, through March 31, 2007, Ohio
made some Temporary Assistance for Needy Families (TANF) basic assistance
payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations.  TANF is a block grant
program that provides funding to States to help families move from welfare to
self-sufficiency; TANFs basic assistance includes benefits designed to meet a
familys ongoing basic needs.  This review, part of an eight-State series, was
requested by the Administration for Children and Families and the Office of
Management and Budget for determining the fiscal year 2008 national TANF error
rate.  Pursuant to the Improper Payments Information Act of 2002 (Pub. L. No.
107-300), Federal agencies must estimate and report to Congress on the annual
amount of improper payments in their high-risk programs.
Based on our sample results, we estimated that the overall TANF improper payment
rate was 21.1 percent of the Federal dollars expended and 20 percent of the
number of basic assistance payments made for the 1-year audit period.  These
improper payments totaled an estimated $44.1 million (Federal share).  The
payments were improper because they were for families who were ineligible for
TANF basic assistance, were duplicated or improperly calculated, or lacked
required documentation.
We recommended that the State (1) use the results of this review to help ensure
compliance with Federal and State TANF requirements, (2) determine the current
eligibility of all recipients identified in this review as improperly enrolled
in the TANF program and ensure that further assistance is denied for those who
remain ineligible, and (3) recalculate assistance budgets for all recipients
identified in this review as having received improperly calculated payments.  In
its comments on our draft report, the State provided information on steps it had
taken or planned to take to implement the recommendations.